             \      .
                                         NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                           OFFICE OF INVESTIGATIONS
              -
              '.*

                                CLOSEOUT MEMORANDUM

11 TO: AIGI 1 File Number: 195030010                                         1 Date: 6 June 2002
 Subject: Closeout Memo                                                                 Page 1 of 1


      There was no closeout written at the time this case was closed. The following information was
      extracted fiom the file in conformance with standard closeout documents.

      Our office was informed that the subject' was alleged to have accepted kickbacks from students in
      return for providing stipends fiom NSF grants. OIG found that a single kickback came from
      nonfedera12 funds, and this matter was referred to the state's3 Attorney General's Office. Our
      investigation determined that $6500 was mischarged to NSF, which was returned to NSF by the
      subject's institution4. At a later date5, the State Attorney General's Office filed a criminal
      investigation against the subject. The subject has since left the country and cannot be located.

      Accordingly this case is closed.
